                                      NATIONAL SCIENCE FOUNDATION
                                      OFFICE OF INSPECTOR GENERAL
                                        OFFICE OF INVESTIGATIONS

                                 CLOSEOUT MEMORANDUM

Case Number: AI0070052                                                     Page 1 ofl,


     The complainant submitted a proposal to NSFl and thought the subject2 and his co­
     authors made use of ideas in a preprint3 that addresses the same idea as in the
     proposal. The complainant suspects the subject was on the panel that evaluated the
     proposal.
     We reviewed NSF's records for reviewers of this proposal and found no connections
     with any of the preprint's authors and the proposal's reviewers. Accordingly, this
     case is closed.




                                                                                          I
                                                                                          I
                                                                                          t




                                                                                          \
                                                                                              \
                                                                                              i
                                                                                              I,
                                                                                              I
                                                                                              i




 NSF DIG Form 2 (11/02)
